   December 5, 2002




Human Capital

Defense Contracting Command-
Washington
(D-2003-031)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AASA                  Administrative Assistant to the Secretary of the Army
ACMO                  Acquisition Career Management Office
ACRB                  Acquisition Career Record Brief
DCC-W                 Defense Contracting Command-Washington
DDP                   Director of Defense Procurement
DSS-W                 Defense Supply Service-Washington
EEO                   Equal Employment Opportunity
TDA                   Table of Distribution and Allowances
U.S.C.                United States Code
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
          Office of the Inspector General of the Department of Defense
Report No. D-2003-031                                                   December 5, 2002
   (Project No. D2002CK-0012)

      Human Capital: Defense Contracting Command-Washington

                                 Executive Summary

Who Should Read This Report and Why? This report should be read by DoD
procurement officials and others who are responsible for oversight of or have an interest
in DoD policies regarding qualifications of acquisition personnel and staffing of
contracting organizations.
Background. The Director, Defense Procurement requested the audit after a
Procurement Management Review identified potential issues concerning equal
employment opportunity, “pay banding” in employee compensation, and workforce
qualifications and training at the Defense Contracting Command-Washington (DCC-W).
The Director, Defense Procurement expressed particular concern that DCC-W had racial
or equal employment opportunity-type problems that were affecting the performance of
duties of DCC-W personnel.

DCC-W reports to the Office of the Administrative Assistant to the Secretary of the
Army. The command awarded 5,249 contractual actions valued at $1.7 billion in
FY 2001. As of October 2001, the command had 245 personnel assigned. On
November 15, 2001, the Defense Supply Service-Washington was renamed the DCC-W
as a result of a reorganization effort to transfer the logistics functions to another Army
Component.

Results. The audit did not identify improprieties concerning equal employment
opportunity and the adoption of “pay banding,” but improvements should be made in
training and organizational planning.
DCC-W did not adequately document that all its professional contracting personnel had
the required education, experience, or training necessary to perform their jobs. Records
for 27 (26 percent) of 102 acquisition personnel did not contain documentation that those
personnel had met the requirements for their certifications. In addition, records for
46 (56 percent) of 82 personnel did not contain documentation that those personnel had
received the required continuing education training. DCC-W did not have guidance in
place to ensure that personnel certification and training requirements were properly
documented and monitored. As a result, DCC-W could not ensure that all its
professional contracting employees were properly certified and adequately trained to
perform their assigned functions. DCC-W should re-examine the 27 questionable
certifications to ensure that they were properly supported and granted. Also, DCC-W
should develop and issue internal command guidance to ensure timely monitoring and
recording of personnel training (finding A).
Planning for the reorganization creating DCC-W was incomplete. The Administrative
Assistant to the Secretary of the Army had not signed the general order to establish
DCC-W. In addition, DCC-W did not have an approved staffing requirement. The
Administrative Assistant to the Secretary of the Army had not taken action to coordinate
the approval of the general order. DCC-W did not perform or request a management
study to determine the appropriate number of personnel required. As a result, DCC-W
may not have the most effective and efficient organization to accomplish its mission.
The Administrative Assistant to the Secretary of the Army should initiate an action to
coordinate with DCC-W for an approval of a general order. Also, DCC-W should
request a management study to determine personnel requirements so that an approved
Table of Distribution and Allowances can be obtained (finding B).

Management Comments and Audit Response. The Army concurred with all the
recommendations and have proposed or have taken initial actions that met the intent of
our recommendations. The Army agreed to re-examine the 27 deficient Acquisition
Career Record Briefs. However, the Army did not agree that the personnel did not have
the necessary qualifications to perform their jobs, and provided additional information
addressing some of the deficiencies in the Acquisition Career Record Briefs for the
27 DCC-W personnel. The Army agreed that DCC-W would issue internal guidance for
the timely monitoring, documenting, and recording of continuous learning points;
however, the guidance would depend on the pending Army-wide guidance to be issued to
the field. In response to our recommendations concerning the DCC-W reorganization,
the Army has initiated action to draft a general order that establishes the DCC-W. Also,
the Army plans to do a management study to determine DCC-W manpower requirements
in the second or third quarter of FY 2003. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the Army comments.




                                           ii
Table of Contents

Executive Summary                                                           i

Background                                                                 1

Objectives                                                                 1

Findings
     A. Certification and Training of Professional Contracting Personnel    3
     B. Organizational Planning at Defense Contracting
          Command-Washington                                               7

Appendixes
     A. Scope and Methodology                                              10
          Management Control Program Review                                11
          Prior Coverage                                                   11
     B. Report Distribution                                                12

Management Comments
     Department of the Army                                                15
Background
    The Director, Defense Procurement (DDP) requested the audit after a
    Procurement Management Review team performed a review of Defense
    Contracting Command-Washington (DCC-W) (formerly Defense Supply
    Service-Washington [DSS-W]) and identified potential issues/problems
    concerning equal employment opportunity (EEO), “pay banding” in personnel
    compensation, and workforce qualification and training. Subsequent to the start
    of the audit, the DDP indicated that she was primarily concerned with whether
    DCC-W had EEO problems that were affecting the performance of duties of
    DCC-W personnel.

    Defense Supply Service-Washington. DoD Directive 5335.2, “Defense Supply
    Service-Washington,” April 21, 1993, sets forth policy and responsibilities for
    DSS-W to provide all DoD Components within the National Capital Region with
    administrative acquisition, supply, contractual, and related services. It designates
    the Secretary of the Army as the DoD Executive Agent for the administration and
    operation of DSS-W. DSS-W reported to the Office of the Administrative
    Assistant to the Secretary of the Army (AASA). In FY 2001, DSS-W awarded
    5,249 contractual actions valued at $1.7 billion. As of October 2001, DSS-W had
    245 people assigned, including 8 military.

    Reorganization. On November 15, 2001, DSS-W was renamed DCC-W as a
    result of a reorganization effort to transfer the logistics functions to another Army
    Component under the AASA. DCC-W will continue to report to the AASA and
    will continue to focus on small business programs, purchase cards, and supply
    and service contracting. Changes under the new organization include replacing
    formal oversight with peer review to enhance quality assurance, and utilizing both
    internal and external rotation programs to broaden the knowledge and skills of the
    workforce. DCC-W reorganization efforts are still in progress.


Objectives
    The objective was to evaluate the DCC-W reorganization plan and its
    management improvement initiatives to assess their potential impact on
    organizational efficiency and effectiveness. The DDP requested that the audit
    specifically address the human capital issues on EEO, “pay banding” in personnel
    compensation, and personnel qualification and training. The audit also reviewed
    the management control program as it related to the audit work performed. See
    Appendix A for a discussion of the audit scope and methodology and our review
    of the management control program.




                                          1
Procurement Management Review Concerns
    Equal Employment Opportunity. The records for the EEO office administering
    the EEO program for DCC-W did not indicate improprieties concerning EEO at
    DCC-W. The EEO office contact log for the last 3 years (January 1, 1999,
    through January 15, 2002) contained only one EEO formal complaint filed in
    1999. The complaint alleged race and sex discrimination and reprisal in a
    nonselection for promotion action. The DoD Office of Complaints Investigation,
    the EEO Commission, and the Army EEO Compliance and Complaints Review
    Agency investigated this matter and concluded with no finding of discrimination
    and reprisal. We found no indication that DCC-W had EEO problems affecting
    mission performance.

    Personnel Compensation at DCC-W. DCC-W adoption of “pay banding” in
    employee compensation was the result of the implementation of the DoD Civilian
    Acquisition Workforce Personnel Demonstration Project. The Under Secretary of
    Defense for Acquisition, Technology, and Logistics (USD [AT&L]) directed the
    project implementation for certain DoD organizations in February 1999. DCC-W
    was one of the organizations selected and has been carrying out the provisions
    and requirements of the project in accordance with DoD guidelines. The
    personnel demonstration project is for 5 years.




                                       2
            A. Certification and Training of
               Professional Contracting Personnel
            DCC-W did not adequately document that all its professional contracting
            personnel had the required education, experience, or training necessary to
            perform their jobs. Records for 27 (26 percent) of 102 acquisition
            personnel did not contain documentation that those personnel had met the
            requirements for their certifications. In addition, records for
            46 (56 percent) of 82 personnel did not contain documentation that those
            personnel had received the required continuing education training. The
            situation existed because DCC-W did not have guidance in place to ensure
            that personnel certification and training requirements were properly
            documented and monitored. As a result, DCC-W could not ensure that all
            its professional contracting employees were properly certified and
            adequately trained to perform their assigned functions.


Certification and Training Criteria
     Certification Criteria. Section 1701(a), title 10, United States Code (10 U.S.C.
     1701(a)), requires that the Secretary of Defense establish policies and procedures
     for the effective management of the accession, education, training, and career
     development of persons serving in acquisition positions in the Department of
     Defense. DoD Manual 5000.52, “Acquisition Career Development Program,”
     November 22, 1995, established the DoD career development program for
     acquisition personnel and prescribes the mandatory requirements for earning the
     three career level certifications. The certification requirements are a combination
     of experience, education, and training. Acquisition personnel must meet the
     certification level for their position within 18 months of occupying the position.
     In September 1999, the Army Acquisition Career Management Office (ACMO)
     published guidance on policies and procedures and established a central review
     process for the acquisition certifications within the ACMO. In May 2000, the
     ACMO also published certification guidelines for certifying officials at Army
     Components. The Acquisition Career Record Brief (ACRB) is the official
     document of record for the civilian career field certifications. The ACRB
     database is maintained by the ACMO.

     Continuous Learning Criteria. On December 15, 1998, the USD(AT&L)
     issued “Reform Through Learning: USD(AT&L) Policy on Continuous Learning
     for the Defense Acquisition Workforce,” which requires civilian and military
     professional contracting personnel who have completed the certification
     requirements for the positions they occupy to earn a minimum of 80 continuous
     learning points every 2 years. The 2-year period is measured from the date of
     certification for the position they occupy or from the date of the prior 2-year
     continuous learning certification. Supervisors are responsible for verifying that
     the individuals have completed the appropriate training. The ACMO published
     Army implementing guidance in November 1999. The Individual Development
     Plan/Continuous Learning database is maintained by the ACMO.

                                          3
Certification and Training Documentation
    Certification Documentation. Certifications granted to 27 (26 percent) of
    102 acquisition personnel were not properly supported. We reviewed the ACRBs
    for 102 personnel to determine whether certifications were properly supported
    and granted. We determined that records for 27 personnel did not contain
    evidence that the personnel had the required education, training, and experience
    to be awarded the level of certification that had been granted. All 27
    certifications had been awarded prior to issuance of ACMO guidance in
    September 1999. The other 75 ACRBs reviewed either did not contain a
    certification, were in the 18-month waiver period, or contained evidence for
    meeting the requirements of certifications granted. Table 1 lists the evidence that
    was missing in the ACRB records for the 27 employees.



                      Table 1. Category or Combination of Data
                               Missing on 27 ACRB Records

                          Education Data                            17

                          Training Data                              5

                          Education and Training                     3

                          Education and Experience                   1

                          Education, Training, and Experience        1

                               Total                                27


    Training Documentation. DCC-W training records indicated that some
    acquisition personnel had not met the required training. We reviewed 82 records
    of continuous learning points for the period December 1998 through
    December 2000. The training records for 46 (56 percent) of the 82 acquisition
    personnel indicated that the personnel had not received sufficient training to
    comply with the 2-year 80 continuous learning points requirement. Of the
    46 records, 38 indicated that the personnel had received zero continuous learning
    points and 8 had received between 1 and 76 points. We judgmentally selected
    and performed a limited review of 23 of the 46 records that showed personnel
    were deficient in their training. Eleven of the 23 personnel had documentation
    that indicated they had earned the 80 continuous learning points during the
    period;    3 personnel had documentation that, although they had not earned the
    80 points required, they had earned more points than the records indicated; and 9
    personnel could not provide documentation to prove their records were
    inaccurate. Thus, DCC-W could not ensure that all personnel obtained the
    required amount of training to meet the training standard.


                                          4
Certification and Training Guidance
     Certification Guidance. DCC-W did not have Army implementing guidance to
     follow when it processed and granted the 27 questionable certifications. DCC-W
     processed the 27 certifications without oversight from ACMO because ACMO
     involvement in the certification process commenced after guidance was published
     in 1999. DCC-W granted certifications without evidence that personnel met the
     education, training, and experience requirement for a certification.

     Training Guidance. DCC-W did not establish internal guidance for ensuring
     that acquisition personnel met the continuous learning standard. The
     USD(AT&L) policy guidance dated December 15, 1998, required DoD
     Components to establish procedures, including the development of internal
     monitoring procedures, for verifying personnel attainment of continuous learning
     standards. However, DCC-W failed to issue the internal command guidance. As
     a result, official training records of acquisition personnel did not accurately reflect
     the number of points attained based on training obtained. At least 14 personnel
     took some training and earned points that were not credited to their records.


Conclusion
     DCC-W could not assure that 27 professional contracting personnel were properly
     certified. DCC-W needed to review the ACRBs and supporting documentation to
     determine whether the certifications were properly granted. Also, training records
     did not accurately reflect continuous learning points earned. DCC-W needed to
     ensure that professional contracting personnel met the certification and training
     required by the USD(AT&L). Further, DCC-W needed to develop internal
     policies and procedures to ensure future compliance with certification and
     training requirements.


Recommendations, Management Comments, and Audit
  Response
     A. We recommend that the Commander, Defense Contracting
     Command-Washington:

            1. Re-examine the 27 Acquisition Career Record Briefs with missing
     education, training, and experience data required for certification, determine
     whether the certifications were properly granted, and take the necessary
     corrective action.

            2. Develop and issue internal written guidance for timely monitoring,
     documenting, and recording of continuous learning points to ensure
     acquisition personnel meet the required 80 continuous learning points.


                                           5
Army Comments. The Army concurred with Recommendations A.1. and
A.2. and have provided time lines for the implementation of the
recommendations. However, the Army disagreed that the personnel did
not have the necessary qualifications to perform their jobs and provided
additional information addressing some of the deficiencies that we noted
in the ACRB records for 27 DCC-W personnel. In response to
Recommendation A.2., the Army stated that it would issue guidance for
the timely monitoring, documenting, and recording of continuous learning
points and that DCC-W internal guidance would depend, in large part, on
the Army-wide guidance to be issued. The Army stated the target
completion date for both recommendations would be the end of first
quarter of FY 2003; however, the completion date for
Recommendation A.2. is tentative due to dependency on the issuance of
the Army-wide guidance.
Audit Response. We consider the Army’s actions to be responsive to the
intent of our recommendations. The finding was that the ACRB records
did not contain evidence of certification as required. We did not mean to
imply that DCC-W personnel lacked the proper certification to perform
their function. The Army agreed that the ACRB records for 27 DCC-W
personnel did not contain evidence of certification. The Army
re-examined the 27 ACRBs that were deficient and stated that it had found
documentation in other sources that support certification for 22 of the
27 personnel. The Army indicated that it is attempting to obtain
additional information to support the certification of the remaining five
personnel. We agree that DCC-W should wait until the Army provides its
guidance for the monitoring, documenting, and recording of continuous
learning points before issuing any supplemental guidance.




                            6
            B. Reorganizational Planning at Defense
               Contracting Command-Washington
            Planning for the reorganization creating DCC-W was incomplete. The
            Army discontinued DSS-W and stood up DCC-W without a signed order
            from the Administrative Assistant to the Secretary of the Army. Also,
            DCC-W had not adequately defined its staffing need. As a result, DCC-W
            might not have the most effective and efficient organization to accomplish
            its mission.


Reorganization of DCC-W
     Prior to November 15, 2001, DSS-W was responsible for contracting and logistics
     support functions for DoD Components within the National Capital Region. On
     November 15, 2001, the contracting functions were reassigned to DCC-W, a new
     organization. The logistics support functions of the former DSS-W were assigned
     to another Army organization.


General Order
     The Army initiated the discontinuance of DSS-W and the activation of DCC-W
     on November 15, 2001, without a signed general order from the AASA. Army
     Regulation 25-30, “Information Management: Publishing and Printing,” and
     Army Pamphlet 25-40, “Administrative Publications: Action Officers Guide,”
     defines a Department of the Army general order as a written directive that
     contains material of general interest on the establishment, redesignation,
     inactivity, or discontinuance of Army commands, installations, agencies, and
     activities. The regulation requires that general orders be coordinated and
     authenticated by the proponent, in this case the AASA, before publication. The
     Army needed to coordinate and authenticate the general order that formally
     establishes DCC-W.


Staffing Levels
     DCC-W did not perform or request a management study to determine the
     appropriate number of personnel required to efficiently and effectively operate the
     reorganized Defense Contracting Command-Washington. A Table of Distribution
     and Allowances (TDA) serves as a basic framework from which managers and
     supervisors structure organizations and establish civilian positions for the
     optimum efficiency and economy of the organization. The TDAs are based on
     results of management studies that integrate the organizational goals and
     objectives with the current and projected workloads and specifies the number of
     military and civilian positions needed at an organization. TDAs are approved by
     Resource Services-Washington, an AASA activity.
                                          7
    Since the establishment of DCC-W on November 15, 2001, the organization has
    not had an approved TDA that reflects staffing consistent with its mission and
    workload. Also, the reorganization of DCC-W eliminated 48 personnel billets.
    See Table 2 for various staffing levels.



                        Table 2. Various Staffing Levels for TDAs



                                                                  Total TDA
            September 7, 2001                                       245*

            December 3, 2001                                        164

            February 21, 2002                                       197

    *TDA was approved and includes logistics support personnel.




Conclusion
    DCC-W managers may assume risks that were not previously identified and may
    not be able to determine whether the objectives of the reorganization will be
    effectively and efficiently met. DCC-W managers need to obtain required general
    order approval and evaluate staffing levels based on forecasted requirements to
    determine the number of personnel required to effectively and efficiently perform
    the organization mission.


Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Administrative Assistant to the Secretary of
    the Army coordinate the general order that formally establishes Defense
    Contracting Command-Washington with the Commander, Defense
    Contracting Command-Washington.

    Army Comments. The Army concurred and stated that a draft general order is
    currently being staffed. The draft general order disestablishes the Defense Supply
    Service-Washington and establishes the Office of the Deputy for Resources and
    Programs with the Defense Contracting Command-Washington as a subordinate
    activity.


                                             8
B.2. We recommend that the Commander, Defense Contracting Command-
Washington:

       a. Conduct or arrange for a management study to determine the
number of civilian personnel necessary to effectively and efficiently perform
the assigned mission and modify future resource requests in accordance with
the results.

     b. Obtain a Table of Distribution and Allowances approval from the
Administrative Assistant to the Secretary of the Army.

Management Comments. The Army concurred and stated DCC-W plans on
arranging for a manpower analysis to determine the number of personnel
necessary to effectively and efficiently perform its assigned mission. The Army
stated the DCC-W TDA is being developed as a subpart of a TDA being
developed for the reorganization of the Office of the Administrative Assistant to
the Secretary of the Army. The TDAs are scheduled for finalization in the first
quarter of FY 2003.




                                     9
Appendix A. Scope and Methodology
   We visited DCC-W, Arlington, Virginia; the Defense Contract Management
   Agency, Alexandria, Virginia; the Army Acquisition Career Management Office,
   Fort Belvoir, Virginia; and the cognizant EEO office for DCC-W, Arlington,
   Virginia. Also, we contacted the Office of the Administrative Assistant to the
   Secretary of the Army and its two subordinate Components, Personnel and
   Employment Service-Washington and Information Management Support Center.

   We reviewed the DCC-W reorganization plans, table of distributions and
   allowances, and reorganization briefing chart to assess the development of the
   reorganization efforts. We reviewed 102 ACRB records to evaluate DCC-W
   certification procedures and 82 computerized records of continuous learning
   points to determine contracting personnel compliance with training requirements.
   We also reviewed the records to evaluate DCC-W procedures for monitoring
   personnel training. We reviewed records for only GS-1102 series personnel and
   selected training records for the last 2-year completed cycle. We obtained a
   summary of the EEO contact log for the last 3 years (January 1, 1999, through
   January 15, 2002). Additionally, we obtained a list of contract actions for
   FYs 1999, 2000, and 2001 and reviewed FYs 2000 and 2001 Statements of
   Assurance for DSS-W. We performed the audit from November 2001 through
   August 2002 in accordance with generally accepted government auditing
   standards.

   Subsequent to our audit announcement, the DDP met with the audit team and
   requested that the audit examine issues raised by a July 2001 Procurement
   Management Review involving equal employment opportunity, “pay banding” in
   employee compensation, and qualification and training of acquisition workforce.
   The audit examined these issues and the DCC-W reorganization efforts and
   management improvement initiatives. We did not review any DCC-W contracts
   or contractual actions. Currently, the Office of the Inspector General of the
   Department of Defense obtains contracting support from DCC-W in accordance
   with DoD Directive 5335.2.

   Use of Computer-Processed Data. We relied on Army Acquisition Career
   Management Office computer-processed training records, the official records of
   training for DCC-W contracting personnel. We assessed the reliability of data in
   the system concerning the completion of training.

   We determined that training data were not always recorded. However, the
   discrepancy would not preclude use of the computer-processed data to meet the
   audit objectives or change the conclusions in this report.

   Use of Technical Assistance. We did not use technical assistance in the
   performance of the audit.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the DoD. This report provides coverage
   of the Human Capital high-risk area.

                                       10
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We performed a
    limited review of the adequacy of the management controls over the operation of
    DCC-W. Specifically, we focused on the review of management controls over the
    DCC-W reorganization plans and its determination of manning requirements. We
    also focused the review on the adequacy of management controls over DCC-W
    procedures for contracting personnel certification and monitoring and recording
    of required personnel training.

    Adequacy of Management Controls. We identified management control
    weaknesses, as identified by DoD Instruction 5010.40. DCC-W had not
    implemented management controls to ensure monitoring and recording of
    contracting personnel training. There was no internal written guidance to ensure
    monitoring and recording of training, and that personnel were meeting training
    requirements. Recommendation A.2. will improve personnel career management
    oversight at DCC-W. We also identified management control weaknesses
    regarding the command reorganization’s lack of an approved general order and
    manning requirement. Recommendations B.1., B.2.a., and B.2.b. will resolve
    discrepancies associated with the DCC-W reorganization. Since the DCC-W
    reorganization effort is still in progress, we are unable to determine how the
    management control program will function overall once the reorganization is
    complete. A copy of the report will be provided to the senior official responsible
    for management controls in the Office of the Administrative Assistant to the
    Secretary of the Army and DCC-W.

    Adequacy of Management’s Self-Evaluation. Management’s self-evaluation
    was not comprehensive. DCC-W officials did not identify personnel certification
    and training as assessable units. They also did not identify the completion of
    requirements for a reorganization as an assessable unit. Therefore, they did not
    identify or report the management control weaknesses identified by the audit.


Prior Coverage
    No prior coverage has been conducted on DCC-W human capital and
    organizational issues during the last 5 years.




                                        11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Administrative Assistant to the Secretary of the Army
  Commander, Defense Contracting Command-Washington

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          13
Department of the Army Comments




                    15
     Final Report
      Reference




     Revised
     Page 3




16
17
18
19
20
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Garold E. Stephenson
Robert K. West
Joseph P. Doyle
Michael J. Tully
Bucceroni Mason
Arsenio M. Sebastian
Shaneen J. Beamish
Miwon Kim
